  OFFICE OF INSPECTOR GENERAL
                 Audit Report

Railroad Medicare Services Billed with Dates of Service
         after the Beneficiaries’ Dates of Death



                  Report No. 10-13
                 September 30, 2010




     RAILROAD RETIREMENT BOARD
                                     TABLE OF CONTENTS

INTRODUCTION  

 Background ....................................................................................................... 1 

 Audit Objective .................................................................................................. 3 

 Scope ................................................................................................................ 3 

 Methodology ...................................................................................................... 3


RESULTS OF AUDIT  

 Data Integrity Concerns with the CMS Deceased Medicare

 Beneficiaries File ............................................................................................... 5

 Annual Deceased Beneficiary Post-Payment Procedure
 Is Not Fully Effective........................................................................................ 11 

 Annual Post-Payment Review Is Not Completed in Accordance
 with Procedures............................................................................................... 13

 Incorrect Data Files Were Used to Identify Deceased RRB
 Medicare Beneficiaries .................................................................................... 15 

 Accounting of Improper Payments Was Not Communicated to
 RRB or CMS Officials ...................................................................................... 16


APPENDICES  

 Appendix I ....................................................................................................... 18 

 Appendix II ...................................................................................................... 19 

 Appendix III ..................................................................................................... 24 




                                                           i
                                INTRODUCTION

This report presents the results of the Railroad Retirement Board (RRB) Office of
Inspector General’s (RRB-OIG) audit of Palmetto’s responsibilities for the review
of Railroad Medicare services billed with dates of service after the beneficiaries’
dates of death.

Background

The RRB is an independent agency in the executive branch of the Federal
government. The RRB administers the retirement/survivor and
unemployment/sickness insurance benefit programs for railroad workers and
their families under the Railroad Retirement Act and the Railroad Unemployment
Insurance Act. These programs provide income protection during old age and in
the event of disability, death, temporary unemployment, or sickness. The RRB
paid approximately $10.7 billion in retirement/survivor and unemployment/
sickness benefits to approximately 631,000 beneficiaries during fiscal year (FY)
2009.

Railroad Medicare

In May 1966, the Social Security Administration (SSA) delegated authority to the
RRB for administering certain provisions of the Medicare program for Qualified
Railroad Retirement Beneficiaries (QRRB's). These provisions included
enrollment, premium collection and selection of a carrier to process Medicare
Part B claims. The enactment of Public Law (P.L.) 92-603 in October 1972
amended the Social Security Act and granted the RRB jurisdiction over all
QRRB's who were receiving both Railroad Retirement and Social Security
benefits.

As part of its oversight responsibilities under the Inspector General Act of 1978,
as amended, the RRB-OIG conducts audits and investigations of alleged fraud,
waste, and abuse within the Railroad Medicare program. For approximately ten
years, beginning in fiscal year 1997, an appropriations law restriction prohibited
the RRB-OIG from conducting Railroad Medicare oversight activities. In
December 2007, P.L. 110-161 restored the RRB-OIG's oversight authority for
Railroad Medicare.




                                         1
Medicare Integrity Program

Section 1862(a)(1)(A) of the Social Security Act requires that expenses be paid
only for reasonable and necessary Medicare services. The Health Insurance
Portability and Accountability Act of 1996 created the Medicare Integrity Program
(MIP), which includes the functions of medical review; data analysis;
provider education; and fraud detection and prevention. The MIP was
established, in part, to strengthen CMS's ability to deter fraud and abuse in the
Medicare program.

Palmetto Government Benefits Administrator, LLC

Since April 2000, the RRB has contracted with its nationwide contractor Palmetto
Government Benefits Administrator, LLC (Palmetto) to process the Medicare
Part B claims for QRRB’s. The contractor is responsible for performing program
management and MIP functions for individuals enrolled in the Railroad Medicare
program. The RRB is responsible for monitoring the actions of its contract carrier
and has one Medicare Contract Operations Specialist working onsite at
Palmetto’s Augusta, Georgia office. During FY 2009, Palmetto processed more
than 11.6 million Railroad Medicare claims, which represented approximately
$908 million in payments for Part B medical services.

The RRB’s contract with Palmetto states that, “[t]he contractor shall perform all
carrier functions for individuals enrolled in Part B of the Railroad Medicare
program throughout the United States.” Railroad Medicare claims are submitted
by providers who are located in multiple regions. The RRB does not contract
with a regional Program Safeguard Contractor 1 (PSC) and Palmetto retains all
responsibility for MIP activities.

The RRB’s contract with Palmetto will be subject to competitive rebid during
2011. A new contract, which reassigns the responsibility for Railroad Medicare
and establishes new requirements under the classification of Specialty Medicare
Administrative Contractor, is currently being negotiated with CMS officials.

Benefit Integrity Unit

Implementation of a benefit integrity program is one of Palmetto's MIP
responsibilities under its cost reimbursement contract with the RRB. Palmetto
has established the Benefit Integrity Unit (BIU) to identify and thoroughly develop
cases of suspected fraud in a timely manner, ensure that Medicare Trust Fund
monies are not inappropriately paid out, and take immediate action to recoup any
mistaken payments. All cases of potential fraud are to be referred to the
RRB-OIG’s Office of Investigations for consideration and initiation of criminal or
civil prosecution, civil monetary penalty, or administrative sanction actions.


1
    Program Safeguard Contractors perform specific MIP functions under contract with CMS.

                                                2
Annual Deceased Beneficiary Post-Payment Review Process

CMS requires Medicare contractors to identify and initiate action to recover
payments with a billed date of service that is after the beneficiary’s date of death.
The identification of improperly paid claims shall be performed at a minimum on
an annual fiscal year basis for beneficiaries who died during the previous fiscal
year. Palmetto’s procedures require that the BIU conduct an annual review in
February to determine if payments were made during the previous fiscal year to
providers for services rendered to beneficiaries after their date of death.
Palmetto’s Accounting Manager is responsible for recovering any funds paid to
providers for claims with service dates occurring after the date of death. In the
event that the Accounting Manager identifies a pattern that indicates fraud, they
are to notify Palmetto’s BIU Investigator. The BIU Investigator will document the
actions taken by all parties involved in the review.

This audit was initiated in response to concerns identified by the RRB-OIG’s
Office of Investigations that Railroad Medicare claims were being paid with
service dates after the beneficiary’s date of death. The audit also supports the
RRB’s underlying objectives to pay benefits to the right people, in the right
amounts, in a timely manner, and to take appropriate action to safeguard the
customers’ trust funds.

Audit Objective

The objective of our audit was to determine if Palmetto’s post-payment review
process effectively identified Railroad Medicare provider claims with service
dates occurring after the beneficiary’s death.

Scope

Audit procedures focused on Palmetto’s annual deceased beneficiary
post-payment review process from January 1, 2005 through December 31, 2009.
The unavailability of records resulted in our adjustment of the scope to calendar
year (CY) 2008 and CY 2009.

The scope of this audit specifically excluded testing of the reliability of beneficiary
dates of death.

Methodology

To accomplish our objective, we:

   •   identified and reviewed pertinent laws and regulations applicable to
       Railroad Medicare and the annual deceased beneficiary post-payment
       review;


                                           3
   •   reviewed Palmetto and CMS’ procedures and analyzed supporting
       documentation;
   •   assessed the adequacy of controls applicable to the post-payment
       process;
   •   inspected beneficiary date of death computer input files for the
       post-payment review; and
   •   interviewed Palmetto and RRB officials responsible for Railroad Medicare.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

We conducted our audit fieldwork at Palmetto’s Medicare offices located in
Augusta, Georgia and at the RRB’s Headquarters in Chicago, Illinois from March
through July 2010.




                                       4
                              RESULTS OF AUDIT

Our audit found that Palmetto’s post-payment review of Railroad Medicare Part B
claims with service dates occurring after the beneficiary’s death is inadequate to
identify fraud and potential overpayments. Our audit also disclosed the following:

   •   the external source data used for identifying deceased Railroad Medicare
       beneficiaries was substantially incomplete;
   •   the post-payment review process as implemented and procedurally
       designed is not fully effective;
   •   controls need improvement to ensure that the post-payment review
       process is adequately coordinated, timely performed, sufficiently
       documented, and readily maintained;
   •   the incorrect computer files were used for the (CY) 2008 and CY 2009
       post-payment review; and
   •   the results of the post-payment review are not being reported to RRB or
       CMS.

Overall, the post-payment review process is not functioning in accordance with
RRB managements’ intent or CMS’ objectives for the MIP. The details of our
findings and recommendations follow.

Data Integrity Concerns with the CMS Deceased Medicare Beneficiaries File

The source data used during Palmetto’s annual deceased beneficiary
post-payment review process did not include the majority of deceased Railroad
Medicare beneficiary records as reported by the RRB. The computer files that
contain the records of deceased Medicare beneficiaries for the post-payment
review included less than 1% of the population of deceased Railroad Medicare
beneficiaries for CY 2008 and CY 2009. The computer files are created by CMS
each year, processed by the enterprise data center, and used as data input for
the post-payment review. Utilizing the incomplete data source which represented
less than 1% of the total deceased beneficiary records, Palmetto’s post-payment
computer match identified only nine potential overpayments for CY 2008 and four
potential overpayments for CY 2009, totaling $879.84 and $593.69, respectively.




                                        5
 The following tables summarize the number of deceased Railroad Medicare
 beneficiaries reported by source for CY 2008 and CY 2009 and the projected
 potential claims overpayments for each year.

                     Annual Deceased RRB Medicare Part B Beneficiaries

     Calendar        Enrolled           Palmetto’s                   RRB                   Approximate
       Year          QRRBs            Source Record                Reported             Number of Records
                                          Count                     Record               Not Available for
                                                                    Count               Review by Palmetto
      2008            476,705                  218                  30,450                    99.3%
      2009            467,943                  186                  27,928                    99.3%


    Extrapolated Projection of Potential Overpayments for Claims Paid to
                          Deceased Beneficiaries
Calendar    Approximate         Potential      Approximate Total Potential
  Year       Number of       Overpayments       Number of    Overpayments 2
            Records Not         Identified       Records
           Available For          During      Available For
             Review by       Post-Payment       Review by
              Palmetto          Computer         Palmetto
                                  Match
                                   (A)              (B)           (A)/(B)
  2008         99.3%             $ 879.84          0.7%        $ 122,895.08
  2009         99.3%             $ 593.69          0.7%        $ 89,142.87

 Section 4.27 of the CMS Program Integrity Manual (PIM) requires that Palmetto
 perform an annual post-payment review to identify claims paid with dates of
 service after a beneficiary’s date of death. In mid-February of each year, CMS
 creates the deceased beneficiary file to be used during the post-payment review.
 Palmetto’s procedure requires that the post-payment review be completed during
 February of each year. To be fully effective, the annual review should include all
 deceased Medicare beneficiaries who died in the previous fiscal year.

 To perform the annual review, Palmetto’s Business Analyst submits a job request
 to the Enterprise Data Center (EDC). The EDC is responsible for generating the
 annual post-payment report for Palmetto’s review. As part of this process, the
 EDC retrieves the CMS computer file of deceased Railroad Medicare
 beneficiaries and performs a computer match against three years of Palmetto’s
 Medicare claims history to identify claims paid for Medicare services after the
 beneficiary’s date of death.

 2
  The potential overpayments can vary considerably by year and could be significantly higher than reported during these
 years. For example, while the CY 2007 CMS deceased beneficiary file was not available for review, the results of
 Palmetto’s computer match totaled $3,889.34. By extrapolating these results, we can project potential overpayments at
 $562,886.86 for the year. Prior contract years may also have yielded similar results.

                                                            6
In response to the RRB-OIG’s request to review the CMS computer files,
Palmetto obtained read access from the EDC. During its subsequent review of
the files, the RRB-OIG identified variances between the CMS and RRB record
counts of the deceased Railroad Medicare beneficiaries. As a result of
RRB-OIG’s review of the files, Palmetto and RRB officials learned that the
deceased Railroad Medicare beneficiary totals were understated. Palmetto and
RRB officials stated that they had no way of knowing that the CMS source file
was incomplete and that they had no point of reference from prior years. The
RRB-OIG found that the report generated by the post-payment review also does
not include the total number of deceased Railroad Medicare beneficiaries, and
unless a special request is made to the EDC they do not have access to the
source file data.

The post-payment review is the only control that Palmetto has for detecting
Railroad Medicare Part B overpayments to providers for unallowable claims on
behalf of deceased beneficiaries. As a considerable number of deaths are not
reported to CMS until more than two months after the date of death, there is a
substantial risk of claims overpayments to deceased beneficiaries. If the
computer file used in the annual post-payment review does not include all
reported deceased beneficiaries, Palmetto will not identify all claims paid with
dates of service after the beneficiary’s date of death. This results in potential
overpayments and fraudulent Medicare claims that will not be identified or
recovered. More than 99% of the total population of deceased Railroad
Medicare beneficiaries for CY 2008 and CY 2009 bypassed the control and were
not subject to post-payment review. We found no evidence that the overpayment
control was effective in prior years. However, the ability to recoup these prior
year overpayments is diminished by statute. 3

The RRB-OIG contacted the responsible CMS contractor to obtain further
information concerning the missing deceased Railroad Medicare beneficiary
data. However, the CMS contractor could not provide an explanation for the data
omissions.

Recommendations

We recommend that Palmetto and RRB officials:

        1. work with CMS to resolve the data integrity weaknesses within the
           CMS deceased Medicare beneficiary file or develop an alternative



   3
    According to the CMS Medicare Carriers Manual, Part 3 § 7100.1, Medicare Contractors cannot recover an
   overpayment discovered more than three full calendar years after the year of payment unless there is evidence that
   the physician or beneficiary was at fault with respect to the overpayment.




                                                         7
         source data file utilizing the most accurate deceased Railroad
         Medicare beneficiary records available;
      2. expedite re-performance of the annual post-payment review for the
         prior three calendar years utilizing the corrected or best available
         deceased Railroad Medicare beneficiary data, beginning with the
         earliest of the three years;
      3. establish procedures to validate the record counts on the CMS
         deceased Medicare beneficiary file with the RRB's Office of Programs
         prior to performing each annual review; and
      4. request additional funding from CMS to support resolution of the data
         integrity issues and the necessary corrective actions.

Management’s Response to Recommendation No. 1

The Office of Programs and Office of Administration have agreed to investigate
the CMS deceased Medicare beneficiary file count discrepancy. A course of
action will be determined in coordination with CMS’ planned implementation of a
real-time review process that is expected to be more effective and efficient. A
target date of six months from the date of the final audit report has been
established for corrective action.

Palmetto management stated that data integrity weaknesses within the CMS
deceased Medicare beneficiary file and development of an alternative data
source are outside of the scope of its contract. However, Palmetto will follow the
instructions outlined in the CMS PIM until further direction is received from RRB
officials or a change is made to the PIM requirements.

The full text of management’s response is provided within Appendix II and III of
this report.

RRB OIG’s Comments on Management’s Response

The Office of Programs and the Office of Administration state that the audit report
did not identify any cases, where there was service after the beneficiary’s death,
that were not caught during Palmetto’s review. However, this was not the
purpose of the audit. The purpose of the audit was to determine if Palmetto’s
post payment review process effectively identified Railroad Medicare provider
claims with dates of service occurring after the beneficiary’s death. The audit
report clearly communicates that more than 99% of the deceased Railroad
Medicare beneficiaries were never subjected to the post-payment review
process. Palmetto officials point to RRB officials’ direction, CMS’ ownership of
the deceased beneficiary file, current PIM requirements, and the Enterprise Data
Center’s (EDC) protocol as justification for the deficiency.



                                        8
The resolution of the deficiencies reported for the Palmetto post-payment review
process requires increased RRB contract oversight and improved cross-
communication. The RRB has an obligation to its constituents to ensure that
Railroad Medicare program integrity activities are carried out in a responsible
manner.

It is imperative that the lack of data integrity inherent within the Medicare
deceased beneficiary file utilized by Palmetto be resolved prior to its February
2011 post-payment review. The Office of Programs and Office of Administration
have not established a workable target date for timely resolution of the problem,
and the actions proposed do not adequately address the weakness identified
during the audit. The limited corrective action proposed does not provide
assurance that the forthcoming post-payment review will be effective in
recovering potential overpayments or that the RRB’s Medicare systems, which
feed deceased beneficiary data to CMS, will be compatible with CMS’ planned
real-time system prior to its April 1, 2011, release.

Proactive discussions with CMS should begin immediately to ensure that
corrective action addressing the data integrity concerns with the deceased
beneficiary file is completed prior to the February 2011 post-payment review.
The RRB’s system feeds of deceased Railroad Medicare beneficiaries, that
provide input to CMS Medicare systems, should also be tested prior to
implementation of the CMS real-time post-payment review.

Management’s Response to Recommendation No. 2

The Office of Programs and Office of Administration have deferred their response
to the recommendation. Their responsive action is contingent on the results of
the investigation that will be conducted in response to Recommendation No. 1.

Palmetto management stated that it will continue to adhere to the current
requirements of the PIM until other direction is received from RRB officials. If
such direction is received from RRB officials, Palmetto will expedite
re-performance of the annual post-payment review with a different data source.

The full text of management’s response is provided within Appendix II and III of
this report.

RRB OIG’s Comments on Management’s Response

The Office of Programs and Office of Administration should request immediate
assistance from CMS to resolve the data integrity issues which hinder the
reliability of the deceased Medicare beneficiary file. After the reliability of a
corrected deceased beneficiary file or an alternate source file has been validated,
all Railroad Medicare claims that were paid but never subjected to post-payment
review during the prior three calendar years should be examined expeditiously.

                                        9
Palmetto’s ability to recover overpayments is diminished over time and limited by
CMS statute. A period of delay in reconciling these historical claims will result in
a corresponding period of non-recoverable claims.

Management’s Response to Recommendation No. 3

The Office of Programs and Office of Administration have deferred their response
to the recommendation. Their responsive action is contingent on the results of
the investigation that will be conducted in response to Recommendation No. 1
and the implementation of a real-time review process by CMS.

Palmetto management stated that it will continue to adhere to the current
requirements of the PIM until other direction is received from RRB officials. If
directed by RRB officials to perform a validation between the CMS and RRB data
sources, Palmetto will work with the contracting officer to ensure compliance with
any new requirements that are currently outside the scope of its statement of
work.

The full text of management’s response is provided within Appendix II and III of
this report.

RRB OIG’s Comments on Management’s Response

Annual validation of the CMS Medicare deceased beneficiary file records with the
RRB’s records is necessary to ensure that the data integrity problem does not
recur. Resolution of the data integrity weakness and implementation of CMS’
real-time system would not eliminate the need for the annual validation.
Recurring validation is necessary to ensure the long-term completeness and
reliability of the deceased Railroad Medicare beneficiary data.

Management’s Response to Recommendation No. 4

The Office of Programs and Office of Administration have deferred their response
to the recommendation. The need for additional funding will be assessed if
additional overpayment cases are discovered prior to implementation of the CMS
real-time review process.

Palmetto management stated that it will defer to the position of RRB officials and
follow their instruction in response to the recommendation.

The full text of management’s response is provided within Appendix II and III of
this report.




                                         10
Annual Deceased Beneficiary Post-Payment Procedure Is Not Fully
Effective

Palmetto’s annual deceased beneficiary post-payment review is not fully
effective. The review procedure both as implemented and designed omits a
segment of the population of deceased Railroad Medicare beneficiaries that are
at risk for overpayment.

Palmetto’s Annual Post-Payment Review

Palmetto is not performing its annual deceased beneficiary post-payment review
in accordance with CMS procedure. Section 4.27 of the CMS PIM stipulates the
use of the prior fiscal year’s deceased Medicare Part B beneficiary records for
the annual review. Palmetto’s documented procedure also specifies the review
of the prior fiscal year’s records. However, Palmetto is utilizing only the prior
calendar year of deceased Medicare Part B records. When using the prior
calendar year, deaths reported during any subsequent calendar year of when the
death occurred and after performance of the annual review would circumvent the
post-payment review. [See Appendix I, Example 1] The current EDC job request
currently references only a single calendar year and Palmetto officials have not
requested that it be changed to fiscal year.

CMS’ Annual Post-Payment Review Procedure

When following the CMS procedure, Medicare beneficiary deaths reported during
a fiscal year subsequent to when the death occurred and after performance of
the review will circumvent the post-payment control. [See Appendix I, Example 2]
In addition, as the CMS post-payment procedure references only a single fiscal
year, the nine months of data prior to the fiscal year and three months of
available deceased Medicare beneficiary data subsequent to the fiscal year are
omitted from the current year’s review. Deaths occurring during the prior nine
month period, but reported in any subsequent fiscal year after the death occurred
and after performance of the annual review would bypass the post-payment
control. Deaths occurring during the three calendar months subsequent to the
fiscal year are not reconciled until the following year. This one year delay
increases the risk of unrecoverable Medicare overpayments.

Without a fully effective post-payment procedure, Palmetto will not identify a
portion of claims paid with dates of service after the beneficiary’s date of death.
Palmetto’s calendar year based post-payment review process and its CMS
based fiscal year procedure both include deficiencies. Failure to resolve these
deficiencies could result in overpayments and fraudulent claims that will not be
identified or recovered.




                                         11
Prior to the release of our draft report, CMS informed an RRB official that a new
real-time deceased beneficiary review would be implemented nationwide early in
2011. The review would be limited to two years of claims history but would
include all reported deceased beneficiaries. However, due to date field
limitations, the RRB’s Medicare systems are not compatible with the new system.

Recommendations

We recommend that Palmetto and RRB officials work with CMS to:

      5. determine the optimal computer file parameters to be used for the
         annual deceased beneficiary post-payment review procedure that will
         ensure the comprehensive identification of Railroad Medicare Part B
         claims paid with dates of service after the beneficiary’s date of death.

We recommend that RRB officials work with CMS to:

      6. upgrade the RRB’s Medicare systems to ensure compatibility with the
         new CMS real-time system.

Management’s Response to Recommendation No. 5

The Office of Programs and Office of Administration stated that they will contact
CMS within six months to determine the appropriate course of action.

Palmetto management stated that it will defer to RRB officials on the
determination of the optimal computer file parameters. Once the parameters
have been determined, as directed by RRB officials, Palmetto will implement the
appropriate procedural changes to the annual deceased beneficiary
post-payment review.

The full text of management’s response is provided within Appendix II and III of
this report.

RRB OIG’s Comments on Management’s Response

Proactive discussions with CMS should begin immediately to ensure that
corrective action has been completed prior to the February 2011 post-payment
review. The proposed action should specifically address the omission of claims
from the post-payment review which result from the procedural deficiencies. The
timeframe for the proposed action is inadequate to ensure resolution of the
deficiency prior to Palmetto’s February 2011 post-payment review.
Implementation of CMS’ planned real-time system will not address the prior year
deceased beneficiaries that are to be included in the scope of Palmetto’s annual
post-payment review.


                                        12
Management’s Response to Recommendation No. 6

The Office of Programs and Office of Administration suggested that the
recommendation be withdrawn. Changes to the RRB Medicare system will be
responsive to system requirements identified by CMS as needed to implement
the planned real-time review process. The full text of management’s response is
provided within Appendix II of this report.

RRB OIG’s Comments on Management’s Response

The OIG will not withdraw this recommendation. The RRB’s Medicare systems
are known to have date of death field inconsistencies and the data integrity of the
deceased Railroad Medicare beneficiary data files that Palmetto is using for their
post-payment review are unreliable. Proactive discussions with CMS should
begin immediately which promote testing of the data feeds of deceased Railroad
Medicare beneficiary data from the RRB’s Medicare systems, which provide input
to CMS Medicare systems and support the CMS real-time post-payment review.

Annual Post-Payment Review Is Not Completed in Accordance with
Procedures

Palmetto’s CY 2008 and CY 2009 deceased beneficiary post-payment reviews
were completed untimely. These reviews were not completed until March 2010,
after the RRB-OIG requested the results.

The results of the post-payment review for CY 2007 that was completed in
February 2008 were not forwarded to Palmetto’s Accounting Manager for
recoupment until March 2010, more than two years after the review had been
completed. In addition, documentation supporting the results of the CY 2005 and
CY 2006 post-payment reviews was not readily available at the time of our
review.

Section 4.27 of the CMS PIM requires that the identification of improperly paid
claims be performed at a minimum on an annual fiscal year basis for
beneficiaries who died during the previous fiscal year. Furthermore, Palmetto’s
procedures require that the annual reviews be completed by mid-February of
each year. CMS further requires that the associated overpayment recoupment
effort be initiated as soon as administratively possible. CMS’ record retention
policy currently requires computer printouts supporting the control of Medicare
claims to be maintained indefinitely. 4

Palmetto did not have effective controls in place to ensure that the post-payment
reviews were adequately coordinated, timely completed, sufficiently documented,
and readily maintained.

4
 CMS’ General Information, Eligibility, and Entitlement Manual, Chapter 7 - Contract Administrative Requirements,
Section 30.30.2 - Description of Records

                                                          13
Without fully effective controls, Palmetto officials cannot ensure that its
post-payment review will be performed in a timely manner to identify and recoup
overpayments. Further, overpayment collections are impacted by the statue of
limitations on recoveries and other factors that hinder collectability
(i.e., bankruptcy, death of provider, foreign relocation).

Recommendation

We recommend that Palmetto officials:

        7. improve the controls over the annual deceased beneficiary
           post-payment review process to ensure the review is adequately
           coordinated, timely completed, sufficiently documented, and readily
           maintained.

Management’s Response to Recommendation No. 7

Palmetto management stated that in accordance with IOM 5 Publication 100-08,
Section 4.27, the Benefit Integrity Unit (BIU) Investigator in coordination with its
Technical Support staff will initiate a request for the annual deceased beneficiary
file during February of each year. Palmetto has revised its internal work
instructions to include procedures for coordination of the activity and the
requirement has been added to its internal metrics report. The BIU investigator
will compare the CMS report to the previous year’s report and the Palmetto
report to identify any billing discrepancies or fraudulent activities. Any
discrepancies or other findings will be reported to the Accounting Supervisor for
payment recovery. The BIU will investigate any reported findings involving
fraudulent activity. The Accounting Supervisor will recover and report the
overpayments identified during review to BIU within 7 business days. Patterns of
fraud will be immediately referred to the investigator. Palmetto will document and
forward all overpayments and referrals to the investigator and management.

Effective April 1, 2011, Palmetto will also be implementing CMS Change Request
(CR) 7123. CR 7123 requires Medicare contractors to utilize current available
automated processes to recoup claims that have line item dates of service
occurring after the beneficiary’s date of death. The full text of management’s
response is provided within Appendix III of this report.




5
 CMS Internet Only Manual (IOM) Publication 100-08 is commonly referred to as the Medicare Program
Integrity Manual (PIM)

                                                14
RRB OIG’s Comments on Management’s Response

We will evaluate Palmetto’s proposed corrective actions after receiving their
revised work instructions and the related impact of the CMS real-time system
after it has been formally implemented.

Incorrect Data Files Were Used to Identify Deceased RRB Medicare
Beneficiaries

The post-payment review process for CY 2008 and CY 2009 specified the
incorrect data input files to use when running the annual deceased beneficiary
post-payment review computer match report.

In response to a system job request from Palmetto’s Business Analyst, the EDC
retrieves the current CMS date of death file and initiates the annual post-payment
review process. The EDC Medicare Systems Specification manual identifies the
data inputs needed to support Palmetto’s request. The EDC requires Palmetto to
use these specifications when making their post-payment system job request.

The published specification for the Railroad Medicare data input file in the EDC
Medicare systems specification manual had not been updated and was incorrect.

If the correct data input file is not used, the job will run improperly and fail to
identify claims paid with dates of service after the beneficiary’s date of death,
negating the effectiveness of the post-payment control.

In response to OIG’s request to review the CY 2008 and CY 2009 CMS
deceased beneficiary source files, the EDC identified and notified Palmetto
officials that the published data input file specification was incorrect. In April
2010 the EDC resubmitted the CY 2008 and CY 2009 jobs using the correct data
input files. In response to our concerns, the published EDC Medicare job
specifications were updated during May 2010.

Recommendation

We recommend that Palmetto officials:

       8. work with the EDC to establish a procedure for validating future
          Railroad Medicare system specifications.

Management’s Response to Recommendation No. 8

Palmetto management stated that it is outside of its scope to establish or validate
procedures for the EDC. CMS provides oversight and the EDC contractor is
responsible for validating the accuracy of their contractor report specifications.
The EDC confirmed the documentation defect that resulted in the production of

                                          15
incorrect data files. Palmetto provided documentation of the defect to the
RRB-OIG. The EDC released updated specifications during April 2010. The full
text of management’s response is provided within Appendix III of this report.

RRB OIG’s Comments on Management’s Response

Communication with the EDC is vital to the effectiveness of contractor
operations. Procedures should be established to ensure that data files
exchanged during the course of normal operations can be relied upon. We
believe that Palmetto should request the assistance of RRB and CMS officials in
the establishment of the annual validation procedure. The EDC specification
update addressed the input files utilized by Palmetto during the CY 2008 and
CY 2009 post-payment reviews but did not resolve our overall concern with the
data integrity of the deceased beneficiary input files that was identified during our
audit and reported under Recommendation No. 1.

The RRB has a responsibility to its constituents to ensure that Railroad Medicare
Program integrity activities are carried out in a responsible manner.

Accounting of Improper Payments Was Not Communicated to RRB or CMS
Officials

Palmetto officials did not report, to RRB or CMS, the improper Medicare
payments identified and the overpayments recouped for CY 2008 and CY 2009.

Section 4.27 of the PIM requires that the accounting of the improper Medicare
payments identified by the responsible benefit integrity unit and the respective
overpayments recouped by the contractor be sent to the Primary Government
Task Leader on December 5th of each year. This report should also be sent to
the CMS Director of the Division of Benefit Integrity Management Operations.
Palmetto officials stated they are not required to report this information to CMS.

Section 4.1 of the PIM requires the contractor to follow the entire PIM for benefit
integrity functions as they relate to their respective roles and areas of
responsibility.

Palmetto officials stated that the Government Task Leader would reside at the
RRB rather than CMS but have not established a procedure for reporting the
results of the annual post-payment review to either RRB or CMS. If RRB and
CMS officials do not receive yearly information detailing the volume and total
amount of overpayments and the results of Palmetto’s recoupment efforts they
cannot assess whether the post-payment review was accurately performed. A
review of the improper payments report by RRB or CMS officials would likely




                                         16
have generated concern that the Palmetto post-payment review was not
identifying all payments to deceased beneficiaries. Therefore, this reporting
deficiency weakens the oversight over Railroad Medicare benefit integrity.

Recommendation

We recommend that Palmetto and RRB officials:

       9. work with CMS to clarify the reporting requirements for the deceased
          beneficiary post-payment review and establish a procedure that will
          ensure effective monitoring and reporting of the results of Palmetto’s
          overpayment identification and recoupment efforts. These reporting
          requirements should be reinforced within the forthcoming Specialty
          Medicare Administrative Contractor agreement.

Management’s Response to Recommendation No. 9

The Office of Programs and Office of Administration stated that Palmetto had
revised its procedures to conform to CMS’ reporting requirements. RRB officials
also stated that the Specialty Medicare Administrative Contractor solicitation will
ensure contractor compliance with the provisions of IOM Publication 100-08.

Palmetto management stated that revised work instructions for the deceased
beneficiary post-payment review process were implemented as of June 10, 2010.

The full text of management’s response is provided within Appendix II and III of
this report.

RRB OIG’s Comments on Management’s Response

We have requested a copy of the revised work instruction from Palmetto
management and upon receipt will review the provided documentation to
determine if closure of the recommendation is warranted. The revised work
instructions were not received prior to the release of our report.

The need for reporting of the results of the deceased beneficiary post-payment
review to CMS as recommended in our report will require compliance with the
requirements of Section 4.27 of the PIM, entitled Annual Deceased-Beneficiary
Post-Payment Review. While the response by the Office of Programs and Office
of Administration addresses other important requirements of the PIM, it does not
specifically address the reporting of the results to CMS of the deceased
beneficiary post-payment review.




                                        17
                                                                                                                                                                          APPENDIX I

As illustrated in the following examples, Palmetto’s current method and CMS’s
procedure for performing the annual deceased beneficiary post-payment review
will not identify improper claims paid for Medicare services charged after an
individual dies if the death occurs during the year under review, but is not
reported until after the review is performed.


Example 1 - Potential for Undetected Claims Based On Calendar Year Review
                                                                                                                1 1 /1 6 /0 9 - 4 /1 /1 0
                                                                                                 P o te n tia l fo r E rro n e o u s C la im s to b e
                                                                                                          P a id fo r D a te s o f S e rvice
                                                                                                 a fte r th e B e n e fic ia ry’s D a te o f D e a th            C la im s p a id a fte r th e d a te o f
                                                                                                                                                                   d e a th o c cu rre d w ill n o t b e
                                                                                                                                                                id e n tifie d sin ce th e d e a th w a s
                                                                                                                                                                    re p o rte d a fte r th e A n n u a l
                                                                                                                      2 /1 5 /1 0                                    re vie w w a s p e rfo rm e d.
                                                                                                                     C Y 2009
                                                                                                                 A n n u a l R e vie w

                                                                          1 /1 /0 9 - 1 2 /3 1 /0 9
                                                               D e c e a se d R e co rd s fo r C Y 2 0 0 9
            4 /1 /0 8   7 /1 /0 8   1 0 /1 /0 8   1 /1 /0 9     4 /1 /0 9       7 /1 /0 9       1 0 /1 /0 9       1 /1 /1 0          4 /1 /1 0          7 /1 /1 0         1 0 /1 /1 0

1 /1 /0 8                                                                                                                                                                                1 2 /3 1 /1 0
                                                                                                       1 1 /1 5 /0 9                     4 /1 /1 0
                                                                                                  D e a th O ccu rre d            D e a th R e p o rte d




In this example, the beneficiary’s death occurred on 11/15/2009 but was not
reported until 4/1/2010. As the death was reported after performance of the
annual review, Medicare Part B claims with dates of service after the date of
death would not be detected if paid prior to the reported date of death. Once the
death is reported, any subsequent claims submitted will be rejected during
system processing.


Example 2 - Potential for Undetected Claims Based On Fiscal Year Review
                                                                                                             9 /2 /0 9 - 4/1/1 0
                                                                                             P o te ntia l for Erro ne ou s C la im s to be
                                                                                                      P aid for D ates of S ervice
                                                                                             a fte r th e B en eficiary’s D ate o f D e ath
                                                                                                                                                            C la im s p aid afte r th e d a te of
                                                                                                                                                              d ea th o ccurre d w ill not be
                                                                                                                                                           id en tified since th e de ath w a s
                                                                                                                         2/1 5 /10                            reported after the A n nu al
                                                                                                                        F Y 2 00 9                              re vie w w a s p erfo rm ed.
                                                                                                                     A nn ua l R e view

                                                           1 0/1/0 8 - 9 /30 /0 9
                                                        D ece ase d F ile F Y 2 00 9
            4 /1/08     7/1/0 8      10 /1 /0 8    1 /1 /0 9      4/1 /0 9        7/1/09           10 /1 /0 9         1 /1 /1 0           4/1 /1 0            7 /1 /1 0         1 0/1/10

1/1 /0 8                                                                                                                                                                                       12 /3 1/10
                                                                                              9/1 /09                                       4/1/10
                                                                                        D ea th O ccu rred                            D ea th R ep orte d

In this example, the beneficiary’s death occurred on 9/2/2009 but was not
reported until 4/1/2010. Medicare beneficiary deaths reported during a fiscal
year subsequent to when the death occurred and after performance of the review
will circumvent the post-payment control and allow claims overpayments to occur
without detection.



                                                                                   18
                                                                                      APPENDIX II

                                                                                  FORM G-llSf(I-92)
                   UNITED STATES

                   GOVERNMENT
                                RAILROAD RETIREMENT BOARD

                   MEMORANDUM
                                                                SEP 2 820m
               Diana Kruel
              Assistant Inspector ~I , r Au~n

FROM:	         Catherine A. Ley5.ee.. fk/~r-t         d cY£4~,
               Director of Assessment and Training        r- ,­
                                                          .

THROUGH:       Dorothy   ISherwood~
               Director of Programs

SUBJECT:	      Draft Report - Railroad Medicare Services Billed with Dates of
               Service after the Beneficiaries' Dates of Death



Overall     This response reflects the coordinated efforts of the Office of Programs and
comments    the Office of Administration.

            The stated objective of this audit is "to determine if Palmetto's post-payment
            review process effectively identified Railroad Medicare provider claims with
            service dates occurring after the beneficiary's death". This draft report did
            not identify any cases where there was service after the beneficiary's death
            that were not caught during Palmetto's review.

            We are not in a position to agree or disagree with the findings at this time.
            We will investigate the reason for the differences in the volumes between the
            file CMS provided to Palmetto and the extract of RRB Medicare records with
            a month and year of death cited in the audit. If we find that there is a
            problem with the file CMS sent we will work with them to determine what
            action, if any, is necessary to address them. In light of the upcoming changes
            to the CMS process to go to real-time reviews when dates of death are
            posted, as cited in the audit, it may not make sense to revise the current
            process.

            For these reasons, we cannot agree to the "Extrapolated Projection of
            Potential Overpayments for Claims Paid to Deceased Beneficiaries"
            contained in this audit. If and when we determine that there is a deficiency in
            the files provided by CMS, and find that there were cases that result in
            additional overpayments we will work with you to determine a projection to
            which we can agree.


                                                                        Continued on next page




                                    19
                                                                                          APPENDIX II


Draft Report - Railroad Medicare Services Billed with Dates
of Service after the Beneficiaries' Dates of Death, Continued

Recommendation	 We recommend that Palmetto and RRB officials work with CMS to resolve
1               the data integrity weaknesses within the CMS deceased Medicare
                 beneficiary file or develop an alternative source data file utilizing the most
                 accurate deceased Railroad Medicare beneficiary records available.


RRB Response	    We agree to investigate the discrepancy in the counts and determine if there
                 is a deficiency in the files provided by CMS. We will determine the best
                 course of action in light of the planned changes to the process referenced on
                 page 9 of the audit. As indicated, CMS expects to implement a real-time
                 review to scan two years of claim history as the date of death is entered into
                 their records to determine if any payments were made after the date of
                 death. This process will be more effective and efficient than the current
                 process and will likely eliminate the need for the current process.

                 We expect to complete our investigation within 6 months of the date of this
                 audit.

                 We see no need for Palmetto to take any action on this recommendation.


Recommendation	 We recommend that Palmetto and RRB officials expedite re-performance of
2	              the annual post-payment review for the prior three calendar years utilizing
                 the corrected or best available deceased Railroad Medicare beneficiary data,
                 beginning with the earliest of the three years.


RRB Response     We defer. We will determine our action on this recommendation contingent
                 on our investigation described in response to recommendation 1 above.


Recommendation	 We recommend that Palmetto and RRB officials establish procedures to
3	              validate the record counts on the CMS deceased Medicare beneficiary file
                 with the RRB's Office of Programs prior to performing each annual review.


RRBResponse	     We defer, contingent on our findings in relation to the first recommendation.
                 Also, since it appears that this whole process will be replaced by the new
                 process CMS is instituting, this may not be necessary.

                                                                               Continued on next page




                                                2


                                        20
                                                                                         APPENDIX II



Draft Report - Railroad Medicare Services Billed with Dates
of Service after the Beneficiaries' Dates of Death, Continued

Recommendation	 We recommend that Palmetto and RRB officials request additional funding
4               from CMS to support resolution of the data integrity issues and the necessary
                 corrective actions.



RRB Response	    We defer. It is not clear that any additional funding will be needed unless
                 additional cases are identified prior to the implementation of the new
                 process.


Recommendation	 We recommend that Palmetto and RRB officials work with CMS to determine
5	              the optimal computer file parameters to be used for the annual deceased
                 beneficiary post-payment review procedure that will ensure the
                 comprehensive identification of Railroad Medicare Part B claims paid with
                 dates of service after the beneficiary's date of death.


RRB Response     RRB will contact CMS regarding this finding and determine an appropriate
                 course of action within 6 months of the date of this audit.


Recommendation   We recommend that RRB officials work with CMS to upgrade the RRB's
6                Medicare systems to ensure compatibility with the new CMS real-time
                 system.


RRB Response	    At this point, CMS has not identified any system requirements or changes
                 that RRB would need to make to implement their new process. Until we
                 know what they need from us, we are not in a position to commit to an audit
                 recommendation to change the RRB Medicare system. We believe that this
                 audit recommendation is premature and unnecessary. We suggest that it be
                 withdrawn.

                                                                             Continued on next page




                                                 3


                                            21
                                                                                        APPENDIX II



Draft Report - Railroad Medicare Services Billed with Dates
of Service after the Beneficiaries' Dates of Death, Continued

Recommendation    Directed to Palmetto.
7,8


Recommendation	 We recommend that Palmetto and RRB officials work with CMS to clarify the
9	              reporting requirements for the deceased beneficiary post-payment review
                and establish a procedure that will ensure effective monitoring and reporting
                of the results of Palmetto's overpayment identification and recoupment
                efforts. These reporting requirements should be reinforced within the
                forthcoming Specialty Medicare Administrative Contractor agreement.


RRB Response	     Palmetto has revised their procedures and issued new instruction to fully
                  conform to CMS reporting requirements as outlined in the CMS manual.
                  These changes became effective on June 10, 2010.

                  The solicitation, currently being prepared by the RRB, requires that the RRB
                  Specialty MAC contractor conduct medical review of claims submitted by
                  providers, or services in accordance with 10M Pub. 100-08. The Specialty
                  MAC contractor will also be required to identify, prevent, or correct potential
                  fraud, waste and/or abuse which shall include, but not be limited to, the
                  matching and analysis of Medicare data. Once the Specialty MAC contract is
                  awarded, we will work with the contractor to ensure that the provisions of
                  10M Pub. 100-08 are implemented.




cc:	            Director of Administration
                Director of Policy and Systems
                       Chief of Payment Analysis and Systems
                Director of Operations
                       Chief of Unemployment and Programs Support
                       Medicare Contract Operations Specialist
                       Supervisory Contracting Specialist




                                                4

                                           22
                                                                                          APPENDIX II

                                                                                     FORM G-1l5f(I-92)

                                                                  RAILROAD   RETIREMENT      BOARD
                MEMORANDUM




TO           Diana Kruel
             Assistant Inspector General for Audit


FROM      : AIenry          iu!"
          c-rnrect;; of A      .
                        /
                      (_/
SUBJECT: Draft Report - Railroad Medicare Services Billed with Dates of
         Service after the Beneficiaries' Dates of Death


As requested, I am confirming that the memorandum provided by the Director        of
Programs dated September 28, 20 I 0 regarding the subject draft report reflects   a
coordinated effort by the Office of Programs and the Office of Administration.     The
Office of Administration's primary responsibility is with the second paragraph     in
response to recommendation 9.




                                         23
     APPENDIX III




24
     APPENDIX III




25
     APPENDIX III




26
